   United States Department of State
And the Broadcasting Board of Governors

         Office of Inspector General




             Executive Summary

Government Information Security Reform Act
     Broadcasting Board of Governors
          FY 2002 Submission

             September 16, 2002
                                        UNCLASSIFIED

EXECUTIVE SUMMARY
PURPOSE

       In response to the Government Information Security Reform Act (GISRA), Public Law
106-398, the Office of Inspector General (OIG) performed an independent evaluation of the
information security program and practices of the Broadcasting Board of Governors (BBG).
This executive summary provides the results of OIG’s evaluation in two parts. Part I
summarizes the results of OIG’s review of BBG’s information security program. Part II contains
OIG’s assessment of BBG’s information security program using performance measures provided
by the Office of Management and Budget (OMB).


PART I
Results of OIG’s Information Security Program Evaluation (Report IT-A-02-07)

        OIG’s evaluation of the effectiveness of the BBG’s information security program
concluded that BBG has made progress, but more must be done to comply with GISRA. BBG
has developed an agency-wide information security program, and it has performed program-level
self-assessments and documented the results of its self-assessments in its quarterly reporting of
the agency’s plans of action and milestones to the Office of Management and Budget (OMB).
Included in this reporting was the identification of 37 information security weaknesses, of which
20 have been corrected. Also, BBG is in the process of hiring a contractor to develop and revise
required information security-related policies and procedures to satisfy its needs.

        OIG also found several key areas of security that still require management attention.
Specifically, it found that BBG needs to develop an incident response process and reporting
procedures to share information effectively on common vulnerabilities and threats. Also, OIG
concluded that BBG lacks security and contingency plans at the systems and major application
level and needs to develop these plans to meet its information security requirements and comply
with GISRA. Lastly, OIG found that BBG lacks an information security training program and
must develop and implement a program that addresses the needs of the agency and its
employees.




                                                                                                  1
                                      UNCLASSIFIED
                                                    UNCLASSIFIED

  Part II
  OIG Assessment of the Broadcasting Board of Governor’s Information Security Program
  Based on OMB Performance Measures

A. General Overview
  1. N/A

  2. Identify and describe as necessary the total number of programs and systems in the agency, the total
  number of systems and programs reviewed by the program officials, CIOs, or OIGs in both last year’s
  report (FY 01) and this year’s report (FY 02) according to the format provided below. Agencies should
  specify whether they used the NIST self-assessment guide or an agency developed methodology. If the
  latter was used, confirm that all elements of the NIST guide were addressed.


                                     TABLE A.1: PROGRAM AND SYSTEM REVIEWS

                                                                                          FY 2001              FY 2002
  2a    Total number of agency programs.                                                     6                    6
  2b    Total number of agency systems.                                                     49                   31
  2c    Total number of programs reviewed by OIG.                                            4                    6
  2d    Total number of systems reviewed by OIG.                                             2                    0
       Note 1: In 2a, agency programs include: International Broadcasting Bureau, Office of Computing Services, Office of Cuba
       Broadcasting, Office of Internet Development, Office of Engineering and Technical Services, and Voice of America
       Broadcast Operations.
       Note 2: In 2b, agency totals show all systems as represented in BBG’s functional area security plans for FY 2002.

  BBG has taken steps to consolidate its information systems under five functional areas. These
  steps include:

    • Designating existing program offices as functional areas and designating all systems within
      each functional area as one system;
    • Performing internal risk assessments at the functional area level and incorporating the risk
      assessments as a major part of the functional area security plans;
    • Completing self-assessments of the International Broadcasting Bureau (IBB) and five
      functional areas, without using National Institute of Standards and Technology (NIST)
      standard methodology; and
    • Incorporating self-assessment results into the plans of action and milestones (POA&M) for
      the BBG submission to OMB.

  In FY 2001, OIG performed two systems reviews and four program reviews. In FY 2002, using
  NIST guidance tailored for OIG’s evaluation, OIG reviewed the IBB agency-wide information
  security program and the five functional area programs. At the time of this review, BBG had not
  completed its FY 2002 self-assessment reviews. However, BBG’s chief information officer
  (CIO) told OIG that these assessments would be completed using NIST guidance by the end of
  FY 2002.



                                                                                                                            2
                                                  UNCLASSIFIED
                                              UNCLASSIFIED

   3. Identify all material weaknesses in policies, procedures, or practices as identified and required to be
   reported under existing law. (Section 3534(1)-(2) of the Security Act.) Identify the number of reported
   material weaknesses for FY 01 and FY 02, and the number of repeat weaknesses in FY 02.


                                     TABLE A.2: MATERIAL WEAKNESSES

                                                                                  FY 2001        FY 2002
    3a    Number of material weaknesses reported.                                    0              0
    3b    Number of material weaknesses repeated in FY02.                            0              0

   BBG reported no material weaknesses in either FY 2001 or FY 2002.

B. Responsibilities of Agency Head
   1. Identify and describe any specific steps taken by the agency head to clearly and unambiguously set
   forth the Security Act’s responsibilities and authorities for the agency CIO and program officials.
   Specifically, how are such steps implemented and enforced? Can a major operating component of the
   agency make an IT investment decision without review by and concurrence of the agency CIO?

   For FYs 2001 and 2002, BBG took a number of actions to develop and implement its security
   program. Specifically, in FY 2001, the Director, International Broadcasting Bureau, appointed
   the associate director for management as the CIO. In addition, BBG developed an agency-wide
   information security program plan and five functional area level security plans. Finally,
   responsible program officials and the CIO performed functional-level internal risk assessments.
   In FY 2002, responsible program officials and the CIO performed functional-level self-
   assessments. Also, BBG obtained a contractor to develop information security policies and
   procedures.

   Under the BBG’s information security program, the CIO is also responsible for IT planning and
   budgeting activities, with assistance from the Broadcast Technology Steering Committee. The
   Broadcast Technology Steering Committee reviews and recommends funding for all IT projects.
   OIG did not perform work to determine the role of the CIO in the IT acquisition process.

   2. How does the head of the agency ensure that the agency’s information security plan is practiced
   throughout the life cycle of each agency system? (Sections 3533(a) (1) (A)-(B), (b )(3) (C)-(D), (b) (6)
   and 3534 (a) (C) of the Security Act.) During the reporting period, did the agency head take any
   specific and direct actions to oversee the performance of 1) agency program officials and 2) the CIO to
   verify that such officials are ensuring that security plans are up-to-date and practiced throughout the
   life cycle of each system?

   The agency head, through the Director of the International Broadcasting Bureau, delegated all
   information security authority and responsibility to BBG’s CIO. OIG found no other actions
   taken by the head of the agency to oversee the performance of agency program officials and the
   CIO to verify that functional area managers are ensuring that security plans are up-to-date and
   practiced throughout the life cycle of each system.

   Under the CIO’s direction, during FY 2001, BBG completed security plans for each of its five
   functional areas and for FY 2002, identified each of its five functional areas as a general support
                                                                                                           3
                                            UNCLASSIFIED
                                            UNCLASSIFIED

system or major application. It designated all systems within each functional area as one system.
OIG found that BBG’s approach to developing system security plans was flawed because it
focused solely on functional areas and not individual systems.

3. How has the agency integrated its information and information technology security program with
its critical infrastructure protection responsibilities, and other security programs (e.g., continuity of
operations, and physical and operational security)? (Sections 3534 (a) (1) (B) and (b) (1) of the
Security Act.) Does the agency have separate staffs devoted to other security programs, are such
programs under the authority of different agency officials, if so what specific efforts have been taken
by the agency head or other officials to eliminate unnecessary duplication of overhead costs and
ensure that policies and procedures are consistent and complementary across the various programs
and disciplines?

BBG is a relatively small federal agency with only minor information technology (IT)
connectivity outside its operational environment. According to BBG’s CIO, it integrates its
information technology security program with its internal critical infrastructure protection
responsibilities through its security program and the International Broadcasting Technical
Discussion Group.

The Director, Office of Security, is assigned responsibility for physical security, while
information security is assigned to the CIO and delegated to the Director, Office of Computing
Services. In BBG’s organizational structure, the Director, Office of Security, and Director,
Office of Computing Services, report to the CIO. No specific efforts have been taken by the
agency head or other officials to eliminate unnecessary duplication of overhead costs and ensure
that policies and procedures are consistent.

4. Has the agency undergone a Project Matrix review? If so, describe the steps the agency has taken
as a result of the review. If no, describe how the agency identifies its critical operations and assets,
their interdependencies and interrelationships, and how they secure those operations and assets.
(Sections 3535(a)(1)(A)-(B), (b)(3)(C)-(D), (b)(6) and 3534(a) (C) of the Security Act.)

BBG has not undergone a Project Matrix review. According to BBG’s CIO, it is not necessary
because the agency does not have any national security systems or connections between itself
and other agencies, except for limited financial and payroll system connections with the
Department of State. According to BBG, the Department is responsible for the security of those
system connections.

5. How does the agency head ensure that the agency, including all components, has documented
procedures for reporting security incidents and sharing information regarding common
vulnerabilities? Identify and describe the procedures for external reporting to law enforcement
authorities and to the General Services Administration’s Federal Information Incident Response
Center (FedCIRC). Identify actual performance according to the measures and the number of
incidents reported in the format provided below. (Section 3534(b)(2)(F)(i)-(iii) of the Security Act.)

The agency head has not ensured that the agency has documented procedures for reporting
incidents and sharing information regarding common vulnerabilities. As OIG reported in its FY
2002 GISRA evaluation report, BBG lacks an information security incident response process and
has no external security incident reporting procedures. GISRA requires that agencies have
procedures in place for detecting, reporting, and responding to security incidents. Toward that
end, BBG’s agency-wide information security program plan calls for each of its five functional
                                                                                                            4
                                          UNCLASSIFIED
                                                UNCLASSIFIED

area program officials to develop incident response and reporting procedures. However, four of
the five program officials reported that the procedures had not been developed. The BBG
information security program plan states that incidents should be reported to the CIO and the
Office of Computing Services so that they can determine whether law enforcement agencies and
the General Services Administration’s (GSA) Federal Computer Incident Response Center needs
to be notified. However, only one of the five BBG functional areas overseeing information
technology (IT) security has documented procedures in place to react to information security
incidents.

BBG officials informed OIG of only four information security incidents that occurred during
FYs 2001 and 2002, none of which were reported outside the agency. Two of the incidents were
not reported outside the functional area where they occurred. In two of the four instances,
several thousand dollars were spent bringing in outside consultants to evaluate the damage
caused by the incidents and to perform a risk assessment of the functional area information
systems.


                                   Table B.1: Incident Response Capability

                                                                                                             FY 2002
      Total number of agency components including bureaus, field activities (functional areas
 5a                                                                                                             29
      and worldwide transmitting sites).
 5b   Number of agency components with incident handling and response capability.                                0
 5c   Number of agency components that report to FedCIRC.                                                        1
      Does the agency and its major components share incident information with FedCIRC in a
 5d                                                                                                             No
      timely manner consistent with FedCIRC and OMB guidance?
      What is the required average time to report to the agency and FedCIRC following an
 5e                                                                                                            N/A
      incident?
      How does the agency, including the programs within major components, confirm that                      see note
 5f
      patches have been tested and installed in a timely manner?                                              below
                                                                                               FY 2001       FY 2002
      By agency and individual component, number of incidents (e.g., successful
      and unsuccessful network penetrations, root or user account compromises,
 5g                                                                                                2             2
      denial of service attacks, website defacing attacks, malicious code and virus,
      probes and scans, password access) reported by each component.
      By agency and individual component, number of incidents reported
 5h                                                                                                0             0
      externally to FedCIRC or law enforcement.
       Note: In 5f, according to the BBG CIO, manufacturer’s documentation regarding patches is reviewed and then applied
       manually to all servers that require it. The patches are then pushed out to the workstations.




                                                                                                                        5
                                              UNCLASSIFIED
                                                UNCLASSIFIED

C. Responsibilities of Agency Program Officials
  1. Have agency program officials: 1) assessed the risk to operations and assets under their control; 2)
  determined the level of security appropriate to protect such operations and assets; 3) maintained an up-
  to-date security plan (that is practiced throughout the life cycle) for each system supporting the
  operations and assets under their control; and 4) tested and evaluated security controls and
  techniques? (Section 3534(a)(2) of the Security Act.)


                                            TABLE C.1: TOTAL SYSTEMS


          Component or Bureau Name                                                    Total Number of Systems
   C1.1   Office of Computing Services                                                           5
   C1.2   Office of Cuba Broadcasting                                                            4
   C1.3   Office of Internet Development                                                         1
   C1.4   Office of Engineering and Technical Services                                          20
   C1.5   Voice of America Broadcasting Operations                                               1
          Total Number of Agency Systems                                                        31
  Note: System totals come from functional area security plans and may not represent all BBG systems. BBG also
  reported on 23 systems in FY 2001 that were not reported under any of the functional area security plans in FY
  2002. BBG did not provide OIG with information on these 23 systems.

  1) BBG’s five functional areas performed internal risk assessments as part of their development
     of functional area security plans. All of the five functional areas performed their initial risk
     assessments internally, based on work experience.

  2) BBG’s risk assessments assign a level of security protection required for its IT assets and
     operations based on its internal risk assessment. However, BBG has not documented these
     assessments.

  3) BBG has not developed security plans at the systems or major application level. Further,
     BBG’s approach to developing system security plans is flawed because it focuses solely on
     functional areas and not individualized systems. System security plans, which are required
     by GISRA, provide an overview of system security requirements, describe established system
     controls, and provide a means for improving the protection of IT resources. During the latter
     part of FY 2001, BBG completed security plans for each of its five functional areas.
     However, it did not develop separate plans for each of the systems within these functional
     areas. For example, OIG found that one functional area grouped 20 of BBG’s 31 reported
     systems for FY 2002 under one security plan.

  4) BBG did not provide OIG with any documentation supporting testing and evaluation of
     security controls. From its discussions with BBG officials, OIG is not clear that methodical
     testing and evaluation is taking place. OIG intends to review testing and evaluation in more
     depth during its FY 2003 independent evaluation.




                                                                                                                   6
                                              UNCLASSIFIED
                                             UNCLASSIFIED

By each major agency component and aggregated into an agency total, from last year’s report (FY 01)
and this reporting period (FY 02) identify actual performance according to the measures and in the
format provided below for the number and percentage of total systems.

BBG did not provide sufficient information for OIG to complete this section.

2. For operations and assets under their control, have agency program officials used appropriate
methods (e.g., audits or inspections) to ensure that contractor-provided services (e.g., network or
website operations) or services provided by another agency for their program and systems are
adequately secure and meet the requirements of the Security Act, OMB policy and NIST guidance,
national security policy, and agency policy? Identify actual performance according to the measures
and in the format provided below. (Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the
Security Act.)


                            TABLE C.2: OFFICE OF INTERNET DEVELOPMENT

                                                                             FY 2001       FY 2002
  2a    Number of contractor operations or facilities.                          1             1
  2b    Number of contractor operations or facilities reviewed.                 0             0

BBG’s functional area/program officials have not used appropriate methods to ensure that
contractor-provided services are adequately secure and meet statutory and regulatory guidance.
BBG contracts with Genuity for its Voice of America Internet operations. However, as shown in
the table above, it has not performed any security reviews on the operation for the services
provided to the Voice of America. Also, on the island of Tinian in the South Pacifc, BBG
maintains a transmitting station that is government owned and contractor operated. As shown in
the table below, the site has not been reviewed to determine if it meets the requirements of
GISRA, OMB policy and NIST guidance.


                   TABLE C.3: OFFICE OF ENGINEERING AND TECHNICAL SERVICES

                                                                             FY 2001      FY 2002
  2a    Number of contractor operations or facilities.                          1            1
  2b    Number of contractor operations or facilities reviewed.                 0            0




                                                                                                      7
                                          UNCLASSIFIED
                                                  UNCLASSIFIED

D. Responsibilities of Agency Chief Information Officers
  1. Has the agency CIO: 1) adequately maintained an agency-wide security program; 2) ensured the
  effective implementation of the program and evaluated the performance of major agency components;
  and 3) ensured the training of agency employees with significant security responsibilities? Identify
  actual performance according to the measures and in the format provided below. (Section 3534(a)(3)-
  (5) and (Section 3534(a)(3)(D), (a)(4), (b)(2)(C)(i)-(ii) of the Security Act.)


                                TABLE D.1: AGENCY-WIDE SECURITY PROGRAM

                                                                                          FY 2001          FY 2002
        Other than GAO or IG audits and reviews, how many agency
   1a                                                                                         6                6
        components and field activities received security reviews?
        What percentage of components and field activities have had such
   1b   reviews? (One bureau, five functional areas, 23 transmitting                         21%              21%
        stations)
   1c   Number of agency employees including contractors.                                   3,237            3,191
        Number and percentage of agency employees including contractors                      13               14
   1d
        that received security training.                                                       0.4%             0.4%
   1e   Number of employees with significant security responsibilities                        21               22
        Number of employees with significant security responsibilities that
   1f                                                                                         13               14
        received specialized training.
   1g   Briefly describe what types of security training were available.                 see D. 1. 3       see D. 1. 3
        Do agency POA&Ms account for all known agency security
   1i   weaknesses, including all components and field activities? If no,                    Yes              Yes
        why not?
        Has the CIO appointed a senior agency information security
   1j                                                                                        No               No
        official?
         Note 1: In 1a, the number includes self-assessments.
         Note 2: In 1c, employees and contractors are approximate numbers as of Oct. 2000 and Oct. 2001.

  1) Adequately maintained an agency-wide security program.
  BBG’s CIO has not maintained adequately an agency-wide security program. As shown in
  OIG’s FY 2002 GISRA independent evaluation report, the BBG has developed an agency-wide
  information security program plan that assigns responsibility for information security and
  identifies the agency information management policy and security program manager as the CIO.
  The program also assigns five program officials with the responsibility for implementing a risk
  management-based security program. Although BBG’s program plan appropriately covers the
  program level for addressing information security issues, BBG has decided not to develop
  information security plans at the systems level. System security plans, which are required by
  GISRA, provide an overview of system security requirements, describe established system
  controls, and provide a means for improving the protection of information technology resources.
  BBG has completed security plans for each of its five functional areas; however there are no
  separate plans for each of the systems within these functional areas. For example, OIG found
  that one functional area grouped 20 of BBG’s 31 reported systems for FY 2002 under one
  security plan.




                                                                                                                         8
                                                UNCLASSIFIED
                                               UNCLASSIFIED

2) Ensured the effective implementation of the program and evaluated the performance of
major agency components.
The CIO has not ensured effective implementation of BBG’s security program. OIG reported in
its FY 2002 independent evaluation that BBG’s information security policies and procedures
were outdated and incomplete.1 Agencies are required by GISRA to develop and implement
security policies, procedures, and controls, which provide each system with security protections
equal to the risk of system operations. In a recent risk assessment, an independent contractor
reported that IBB lacked defined security policies to address configuration management and
installation of non-mission related software. Also, GISRA requires that agencies have
procedures in place for detecting, reporting, and responding to security incidents, and BBG’s
agency-wide information security program plan reiterates this requirement. However, BBG
lacks an information security incident response process and has no external security incident
reporting procedures. Lastly, OIG reported in its FY 2002 GISRA evaluation that BBG lacks
system or major application contingency plans to support all of its information technology
operations. BBG’s information security program recognizes that contingency plans ensure an
agency’s ability to recover from a disruption and provide service sufficient to meet the minimal
needs of users and calls for the plans to be developed. However, OIG found that no systems
contingency plans had been developed and that only one of the five functional areas had a
contingency plan.

3) Ensured the training of agency employees with significant security responsibilities.
The CIO has not ensured that employees with significant security responsibilities are trained
adequately. Few employees at BBG receive any information security training, and those who do
are technical employees. Although the BBG Information Security Program Plan acknowledges
the need for information security training and assigns the Office of Computing Services with
responsibility for developing and implementing an information security education program, BBG
officials reported that no specific information security training was taking place. Further, BBG
lacked a formal mechanism for tracking individual training, and officials were not able to
provide OIG with any statistical data on information security training that showed the classes
taken, which employees took the classes, or the associated cost.

2. For operations and assets under their control (e.g., network operations), has the agency CIO used
appropriate methods (e.g., audits or inspections) to ensure that contractor-provided services (e.g.,
network or website operations) or services provided by another agency are adequately secure and meet
the requirements of the Security Act, OMB policy and NIST guidance, national security policy, and
agency policy? Identify actual performance according to the measures and in the format provided
below. (Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the Security Act.)


                          TABLE D.2: CONTRACTOR OPERATIONS AND FACILITIES

                                                                                        FY 2001         FY 2002
    2a   Number of contractor operations or facilities.                                    2               2
    2b   Number of contractor operations or facilities reviewed.                           0               0
         Note: 2a includes Tinian transmission station and Office of Internet Development contracting operations.

1
 Information Security Program Evaluation: Broadcasting Board of Govenors (Report Number IT-A-02-07, September
2002)

                                                                                                                    9
                                             UNCLASSIFIED
                                            UNCLASSIFIED


The CIO has not used appropriate methods to ensure that contractor-provided services are
adequately secure and meet statutory and regulatory guidance. BBG maintains a transmitting
station on the island of Tinian, which is contractor operated. The site was not reviewed to
determine whether it meets the requirements of GISRA, OMB policy and NIST guidance.
However, BBG did review information systems related to this transmitting station as part of its
risk assessment. BBG also contracts with Genuity for its Voice of America Internet operations,
but there were no security reviews performed on this operation.

3. Has the agency CIO fully integrated security into the agency’s capital planning and investment
control process? Were security requirements and costs reported on every FY 03 capital asset plan (as
well as in the exhibit 53) submitted by the agency to OMB? If no, why not? Identify actual
performance according to the measures and in the format provided below. (Sections 3533(a)(1)(A)-
(B), (b)(3)(C)-(D), (b)(6) and 3534(a)(C) of the Security Act.)


               TABLE D.3: CAPITAL PLANNING AND INVESTMENT CONTROL PROCESS

                                                                              FY 2003     FY 2004
                                                                               Budget      Budget
                                                                              Materials   Materials
  3a    Number of capital asset plans and justifications submitted to OMB        0           0
        Number of capital asset plans and justifications submitted to OMB
  3b                                                                             0           0
        without requisite security information and costs?
        Were security costs reported for all agency systems on the agency’s
  3c                                                                            N/A         N/A
        exhibit 53?
  3d    Have all discrepancies been corrected?                                  N/A         N/A
        How many have the CIO/other appropriate official
  3e                                                                            N/A         N/A
        independently validated prior to submittal to OMB?

According to the BBG CIO, BBG is not required to prepare an exhibit 53, and its capital asset
plan is under development.




                                                                                                      10
                                          UNCLASSIFIED
